<html>
<title> - CRISIS IN COTE D'IVOIRE: IMPLICATIONS FOR THE COUNTRY AND REGION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




    CRISIS IN COTE D'IVOIRE: IMPLICATIONS FOR THE COUNTRY AND REGION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 13, 2011

                               __________

                           Serial No. 112-57

                               __________

        Printed for the use of the Committee on Foreign Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
65-794 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York














                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

Mr. William Fitzgerald, Deputy Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State......................     6

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. William Fitzgerald: Prepared statement.......................     9

                                APPENDIX

Hearing notice...................................................    26
Hearing minutes..................................................    27
Mr. William Fitzgerald: Material submitted for the record........    28

 
    CRISIS IN COTE D'IVOIRE: IMPLICATIONS FOR THE COUNTRY AND REGION

                              ----------                              


                       WEDNESDAY, APRIL 13, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And I would 
just note for the record that my friend and colleague, Mr. 
Payne, will be here in about 5 minutes. So just to expedite, we 
will begin.
    Good morning, ladies and gentlemen. Today's hearing 
concerns the continuing tragedy in Cote d'Ivoire, where a 
repeatedly delayed Presidential election and a subsequent 
runoff election failed to end longstanding political and civil 
unrest in that West African nation. Despite the arrest of 
sitting President Laurent Gbagbo this week, there remain 
obstacles to the return of peace and prosperity to Cote 
d'Ivoire.
    Cote d'Ivoire has been one of the region's most stable 
governments and an African economic powerhouse. In fact, even 
during the worst periods of civil war in this troubled country, 
Cote d'Ivoire remained one of America's largest trading 
partners in Africa. Unfortunately, this nation has become a 
blight on its neighbors rather than the blessing it had been 
for so long.
    As many as 1 million Ivoirians have been driven from their 
homes by the fighting. Nearly 44,000 have fled to Liberia, more 
than 7,000 have fled to Ghana, as well as smaller numbers who 
have sought refuge in Burkina Faso, Benin, Togo, Nigeria, and 
Mali.
    If this conflict is not brought to an end soon, there will 
be even more Ivoirian refugees in neighboring countries despite 
the announcement of the border's closing on March 31. 
Unfortunately, there is no certainty that the various armed 
factions will lay down their weapons and forego reprisals as 
quickly as we would hope.
    According to news reports last week, it was only a matter 
of days or hours before President Gbagbo resigned and accepted 
the internationally recognized election of President Ouattara. 
Like much in Cote d'Ivoire's recent history, that expected 
development didn't take place. The arrest this week was 
variously reported to have been at the hands of forces loyal to 
President Ouattara or the French military. Any lack of 
certainty will only add to the allegations of Gbagbo and his 
supporters that foreign forces overthrew an African government.
    Ouattara has exercised executive power for the last 3 years 
of the life of founding President Felix Houphouet-Boigny, but 
when he died in 1993, the President of the National Assembly 
was named his successor. From that point forward, stability has 
been a thing of the past in Cote d'Ivoire.
    Bedie was elected in 1995 in a controversial balloting. He 
was subsequently overthrown and exiled in 1999 by Robert Guie, 
who was himself unseated and forced to flee after a popular 
uprising because of suspicions of a tainted election in 2000.
    Laurent Gbagbo was believed to have been the rightful 
winner of the 2000 elections, was declared President, but his 
presidency was troubled by coup attempts and growing violence 
between Christian southerners and Muslim northerners. A 2002 
military mutiny in the capital city of Abidjan grew into a 
full-scale rebellion, with rebels seizing much of the north of 
the country.
    Beginning in 2003, cease fires were agreed to and then 
broken. Elections, beginning in 2005, were repeatedly 
postponed. The 2010 elections were hoped to be the solution to 
the enduring human rights tragedy in Cote d'Ivoire. Like so 
many other expectations before it, however, this resolution was 
not to occur.
    Meanwhile, human rights violations against Ivoirians under 
the Gbagbo regime were rampant--from extra-judicial killings to 
torture to forced disappearances to rape. On March 30, more 
than 800 Ivoirians were massacred in the town of Duekoue when 
pro-Ouattara forces captured it. The incoming President 
disavowed responsibility of his forces in the massacre and 
promised a full investigation.
    Throughout the months since the runoff election last fall, 
Gbagbo used his leverage shrewdly to hold onto power and cast 
doubt on an internationally supervised process to which he had 
agreed. According to the international accord, the Ivoirian 
election commission would certify a winner that the 
international community would then accept. However, the 
Constitutional Council appointed by President Gbagbo declared 
the election unacceptably tainted.
    During the months of wrangling over the election outcome, 
Gbagbo played on nationalist sentiment, raising concerns of 
French influence on the certification of the voting. He has 
repeatedly emphasized that the United Nations had no right to 
declare a winner of the elections in a sovereign nation, 
although he had agreed to such a process beforehand.
    Even as his military's Air Force and heavy weaponry were 
stymied by U.N. and French forces, and rebels surrounded his 
last stand in a presidential bunker, he knew that if he were 
killed or resigned without an undisputed elected successor, the 
Constitution called for the Speaker of the National Assembly to 
become President.
    For months, Gbagbo withstood international condemnation, 
especially by the Economic Community of West African States, 
which at one point threatened military action that never 
materialized. He had supporters among the African Union early 
on who delayed that body's full acceptance of the 2010 election 
outcome.
    Increasing African concerns of French and other 
international military interventions could be problematic in 
resolving the crisis among some in Africa and elsewhere who may 
now buy into Gbagbo's conspiracy theories of foreign 
interference in Cote d'Ivoire.
    Above all, we must remember that President Ouattara has 
always been considered an international figure, even when he 
was brought in as Prime Minister to bolster the ailing economy 
in 1990. The north-south dispute in Cote d'Ivoire partly 
concerns his repeated exclusion from Presidential elections and 
allegations that he was a foreigner. The treatment of Ouattara 
was seen as symbolic of the mistreatment of northerners and 
Muslims in Cote d'Ivoire. Resentments on both sides of the 
regional-religious divide in the country will not disappear 
overnight.
    This hearing is intended to discuss the Obama 
administration's assessment of the complicated situation we now 
face in Cote d'Ivoire, to examine strategies to unravel this 
mess, and to look forward to how this former bulwark of West 
Africa can be restored to its former place of prominence in the 
region as well as on the continent.
    Given our current military involvements in the Middle East 
and North Africa, diplomacy seems to be the preferred method of 
American intervention, but what role does the United States 
play in the situation thus far dominated by the United Nations 
and by France?
    Given our economic ties to Cote d'Ivoire, we are not casual 
bystanders in this matter, but how can we best play the role of 
peacemaker and assist in the lasting reconstruction of one of 
Africa's most important countries? Furthermore, how can we 
intervene without seeming to be yet another foreign power 
trying to thwart the will of the people of Cote d'Ivoire?
    This is the challenge being taken up this morning by our 
distinguished witness, William Fitzgerald, Deputy Assistant 
Secretary of State in the Bureau of African Affairs. And we are 
very grateful to be joined by him today.
    And I would like to now yield to my good friend and 
colleague, Mr. Payne, for his opening statement.
    Mr. Payne. Thank you very much. Thank you, Chairman Smith, 
for discussing this very important hearing. And thank you for 
delaying it for 5 minutes or so as I fought traffic. But this 
is a very important hearing. As we all know, Cote d'Ivoire, one 
of the leaders in Africa as a nation, a nation that had very 
strong economic prowess, a nation that drew all neighboring 
countries unto them to have economic opportunity, and then we 
see the demise that we have seen over the past 4 months.
    As you know, I have focused on elections and democratic 
process across the African continent, and it is very 
significant as a priority because, in particular this year, 
there will be 15 additional elections in very important 
countries--Nigeria and the Democratic Republic of Congo, and 
on.
    And so it is important that a model is set, so that the 
others would have something to follow. So this has been very 
disturbing, because this is a very poor example for the 
elections that will be unfolding in Africa, and we must not 
allow this to be the pattern.
    As you know, President Obama and Secretary Clinton have 
asserted time and time again that the United States must 
support the democratic aspirations of all people.
    The situation in Cote d'Ivoire is extremely troubling and 
disappointing. Laurent Gbagbo, a former democratic activist, 
who was once seen by many as the father of the Ivoirian 
democracy, was soundly defeated at the polls last November. He 
was such an advocate in the previous time that he was 
imprisoned by the former President, and so people had much 
faith when he was elected to President before.
    But after the polls closed, and showed that he was defeated 
soundly, he refused to cede power to Alassane Ouattara, whom 
the United Nations certified as the legitimate new President, 
and his actions plunged the once economically vibrant and 
beautiful country into complete disarray. There was unanimity 
around the world. The African Union certified that Mr. Ouattara 
won.
    ECOWAS joined in. IGAD from the other side of the continent 
on the east part of Africa said the same thing, the EU 
confirmed it, and so did the U.S. And so there was total accord 
that Ouattara was the winner.
    The political crisis erupted into a full-scale civil war 
and humanitarian crisis, which will likely have a lasting 
impact. The post-election violence has resulted in over 1,500 
deaths, the vast majority of whom were citizens in addition to 
close to 1 million displaced people, and 1,000 who remain 
trapped in their homes without access to water, food, and 
medical care.
    UNHCR estimates that 150,000 refugees are spread across 12 
countries in West Africa, with 135,000 refugees in Liberia--
Liberia, a country that is struggling coming out of the long 
civil war, but once again has to take in refugees from their 
neighboring country. As in most African countries, refugees are 
welcomed and are cared for to the best of the ability of those 
countries.
    Concerns about increased violence by forces loyal to both 
sides prompted the U.N. Security Council to adopt Resolution 
1975 on March 30, demanding an immediate cease fire and calling 
on Gbagbo to leave office and cede power to Ouattara. In 
addition, a resolution urged the U.N. to use all necessary 
means to protect the citizens and to call upon the U.N. Human 
Rights Council to investigate human rights violations. The 
resolution also included targeted sanctions against Gbagbo, his 
wife, and key associates.
    During the last days of March, supporters of Ouattara took 
control of strategic positions, entered the country's largest 
city, Abidjan, captured the capital city, and closed the 
international borders to prevent Gbagbo and his affiliates from 
fleeing the country.
    Also, at that time, an estimated 244 people were reportedly 
killed in the western Ivoirian country of Duekoue. According to 
U.N. High Commission for Human Rights, the area is ethnically 
diverse, has a history of cross-border military activity, and 
has been the site of inter-communal violence at several 
junctures in the Ivoirian conflict.
    The killing occurred shortly after pro-Ouattara forces 
captured the city. Ouattara has rejected allegations that his 
forces were responsible for the killings, and he has pledged to 
launch an investigation and welcomed an independent 
international inquiry, and that is a positive first step. At 
least 100 more bodies were found by U.N. investigators in two 
western towns of the country said to have been killed by ethnic 
militias.
    Last week, U.N. and French helicopters attacked weapons 
depots in Abidjan to prevent forces loyal to Mr. Gbagbo from 
targeting civilians. This week, forces loyal to President 
Ouattara arrested Mr. Gbagbo at his residence in Abidjan. 
Although Gbagbo has been apprehended, the violence continues.
    In the coming days and weeks, Ouattara will face a number 
of stark challenges, including a deeply divided population, a 
military regime, and allied militias that have fought to keep 
him from power in a once-vibrant economy ruined by years of 
conflict, mismanagement, and international isolation. It is 
uncertain how much command and control Ouattara may have over 
the rebel movement that claims to be fighting on his behalf as 
evidenced by the massacre in Duekoue.
    The conflict will have long-term consequences on the 
stability of the country. Reconciliation and due political 
process should be reinstalled. Accountability and justice for 
all perpetrators of the heinous post-election violence must be 
a priority. President Ouattara must make good on his pledge by 
moving swiftly to ensure independent and impartial 
investigation of all allegations of mass killings and other 
human rights abuses. Such investigations cannot be perceived as 
biased, and justice and accountability must be upheld on both 
sides of the conflict.
    Indeed, Ouattara has an enormous challenge on his hands. 
Now it is time to commence national reconciliation efforts, 
invest and rebuild in infrastructure, facilities, and 
institutions damaged as a result of the military and political 
crisis, to ensure the safety of all persons resident within 
Cote d'Ivoire, and to facilitate the safe and voluntary return 
of refugees and internally displaced people.
    The United States and the international community must 
stand by the people of Cote d'Ivoire every step of the way.
    Once again, Mr. Chairman, I yield back and appreciate the 
hearing today, and yield back the balance of my time.
    Mr. Smith. Thank you very much, Mr. Payne.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. Appreciate you and 
the ranking member calling this hearing. It is very timely and 
important as we assess options for a meaningful way forward for 
a country and a region that possess enormous economic 
potential.
    Since last November's Presidential election, we have seen a 
deterioration into a post-election crisis that has spiraled 
into violent conflict, with an untold number of civilians 
wounded, raped, and killed, and more than 1,000,000 internally 
displaced persons and over 100,000 refugees escaping into 
neighboring countries.
    This past Monday, after 4 months Gbagbo was captured, 
allowing Ouattara to rightfully take his place as President-
elect.
    I hope to hear in depth today about the role international 
organizations have played in the crisis. I also look forward to 
discussing how the U.N. mission supports U.S. interest in the 
region moving forward, how the U.S. can work with the U.N., 
France, and other international partners to promote 
reconciliation and stable progress for Cote d'Ivoire.
    Deputy Assistant Secretary Fitzgerald, thank you for being 
here today. I hope that you can shine some light on the 
pathways to stability and peace. Welcome, and we look forward 
to hearing your testimony.
    Mr. Smith. Mr. Carnahan, thank you very much.
    I would like to now welcome and introduce William 
Fitzgerald, who serves as Deputy Assistant Secretary of State 
in the Bureau of African Affairs, overseeing policy and 
operations at all U.S. missions in West Africa, and the work of 
the Bureau's Economic Policy Office.
    From 2006 to 2009, Mr. Fitzgerald served as a Deputy 
Assistant Secretary in the Bureau of Population, Refugees, and 
Migration. His regional portfolio included Afghanistan, 
Pakistan, sub-Saharan Africa, Central Asia, and Latin America.
    Prior to joining PRM, from 2003 to 2006, Mr. Fitzgerald was 
Deputy Chief of Mission at the U.S. Embassy in Kampala, Uganda. 
In his final year, he served as Charge during the controversial 
2006 elections. A 22-year veteran of the Foreign Service, Mr. 
Fitzgerald has served at other African posts, including Togo, 
Mali, and Zambia, as well as tours in Mexico and Ecuador. He 
also worked in the Bureau of Political Military Affairs in 
Washington.
    Before he joined the Foreign Service in 1988, Mr. 
Fitzgerald worked as a reporter and editor for United Press 
International and the Paris-based Organization of Economic 
Cooperation and Development. He is a graduate of the University 
of Chicago.
    Mr. Fitzgerald, welcome, and proceed as you would like.

     STATEMENT OF MR. WILLIAM FITZGERALD, DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Fitzgerald. Mr. Chairman, Ranking Member Payne, and 
Congressman Carnahan, thank you for this opportunity to testify 
before you today on Cote d'Ivoire. Cote d'Ivoire is an 
important country in sub-Saharan Africa and one of great 
significance to the United States.
    First, let me express our concern for the very real human 
tragedy that has befallen the Ivoirian people as a result of 
the political crisis. The road to democratic elections was a 
long and turbulent one, and the Ivoirian people deserve to have 
their voices heard and respected by a government that is 
responsive to their needs.
    The Fall 2010 Presidential elections were the culmination 
of nearly 10 years of international community engagement to 
broker lasting peace in Cote d'Ivoire. Following controversial 
elections in 2000, and a civil war that divided the country, 
then-President Laurent Gbagbo and opposition leader Alassane 
Ouattara helped craft the electoral process through a series of 
negotiated agreements beginning in 2005.
    These agreements specified that the United Nations provide 
technical assistance to support elections, deploy observers 
around the country, and certify each stage of the electoral 
process. We have supported the United Nations' presence in Cote 
d'Ivoire since 2003, including its current incarnation as the 
U.N. Operation in Cote d'Ivoire (UNOCI), as well as the French 
military force (Licorne), which is mandated to assist UNOCI's 
work under Security Council Resolution 1528 in 2004.
    After several years of delay, the first round of elections 
on October 31 last year was held by all candidates and 
observers as peaceful and fair, with nearly 80 percent voter 
turnout and no significant irregularities reported. However, 
indeed, the November 28 runoff between Alassane Ouattara and 
Laurent Gbagbo was again characterized by high voter turnout, 
and largely peaceful participation by the Ivoirian people.
    Credible, accredited observers assessed that both rounds 
were free and fair and free of irregularities that would have 
affected the results. As a part of his mandate to certify each 
step of the electoral process, the U.N. Special Representative 
of the Secretary General (SRSG), Y.J. Choi, received duplicate 
identical copies of 20,073 tally sheets, which the Independent 
Electoral Commission and the Constitutional Council used to 
determine the results.
    After reviewing these tally sheets, SRSG Choi certified the 
finding of the Independent Electoral Commission that Alassane 
Ouattara had won the second round with 54 percent of the vote. 
However, the Constitutional Council, a body composed of Gbagbo 
appointees, nullified the totality of the results in several 
specific districts which Ouattara had carried, handing Gbagbo a 
victory by a margin of 51 percent.
    International observers, including the Carter Center, with 
former President of Ghana John Kufuor leading their delegation, 
the African Union, the Economic Community of West African 
States (ECOWAS), and the United Nations were unified in their 
acceptance of President Ouattara's victory.
    The international consensus in support of a well-organized 
democratic process was critical in preventing a return to full-
scale civil war in Cote d'Ivoire, as well as preserving 
Africa's democratic momentum as other countries, such as 
Nigeria and the Democratic Republic of Congo, which hold 
national elections this year. Despite this consensus, however, 
Laurent Gbagbo refused to concede defeat and began re-arming 
and reaching out to his militias to intimidate and attack 
communities that supported President Ouattara.
    From the onset of the crisis, the United States worked 
closely with ECOWAS, the African Union, and the United Nations 
to find a peaceful resolution, using diplomatic and political 
tools to push for an outcome that respected the will of the 
Ivoirian people.
    However, Mr. Gbagbo's tactics became increasingly violent 
as the crisis drew on. As fighting increased between the two 
camps, there have been reports of human rights abuses committed 
by combatants on both sides. Following Gbagbo's use of heavy 
weapons against unarmed civilians, the U.N. Security Council 
called for the UNOCI and French military force Licorne to act 
under their mandates and to take all necessary measures to 
protect civilians under threat, including by neutralizing the 
heavy weapons in and around Abidjan.
    These operations were critical in preventing a further 
escalation of violence in Abidjan. On Monday, as you mentioned, 
April 11, President Ouattara's Republican Forces took Gbagbo, 
his wife, and his entourage into custody.
    The hard work is just beginning in Cote d'Ivoire, and 
President Ouattara must now begin implementing his 
reconciliation plan in earnest. President Ouattara has outlined 
his intent to be President of all Ivoirians, and is committed 
to a broad and comprehensive reconciliation effort to build 
lasting peace. This must include accountability on all sides 
for atrocities and human rights violations committed since the 
November elections.
    We commend President Ouattara's calls for independent 
investigations into alleged human rights abuses and violations, 
and the United States recently co-sponsored a resolution at the 
U.N. Human Rights Council in Geneva that has created a 
Commission of Inquiry to investigate these allegations.
    Accountability and a meaningful reconciliation process are 
essential not only for Cote d'Ivoire's future, but for regional 
stability in the wake of the Ivoirian crisis. With more than 
100,000 Ivoirian refugees in Liberia and other neighboring 
countries, President Ouattara must create a stable and peaceful 
environment to allow them to return.
    The more than 1,000,000 internally displaced Ivoirians must 
be able to return to their homes and to their lives. The United 
States is currently providing $31.7 million to address the 
growing humanitarian crisis in Cote d'Ivoire and the affected 
communities in Liberia and neighboring countries.
    We are committed to working with President Ouattara and the 
Ivoirian people to help reestablish Cote d'Ivoire as the beacon 
of stability and economic prosperity it once was. A prosperous 
and peaceful Cote d'Ivoire is an asset to the region and the 
continent, and we look forward to playing a part in the hopeful 
future that lies ahead.
    Thank you again, members of the committee, for the 
opportunity to speak today, and I welcome any questions that 
you may have. Thank you very much.
    [The prepared statement of Mr. Fitzgerald follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Fitzgerald, for your 
testimony and for your leadership.
    Let me just ask a few opening questions. First, 
International Criminal Court proceedings have been discussed 
for Mr. Gbagbo since his arrest. But given the deep divisions 
in Cote d'Ivoire, in your opinion, would it be advisable to 
push for a trial in a foreign court? Might that not exacerbate 
tensions there? And what is the administration's view of an ICC 
trial?
    Mr. Fitzgerald. Well, at this point, to be perfectly honest 
with you, President Ouattara has said that he is investigating 
with his Justice Minister and his Minister of Human Rights the 
allegations against Mr. Gbagbo, and may in fact try him in 
Ivoirian court. These discussions continue.
    Yes, it is true the ICC has begun an exploratory 
investigation into the allegations against Mr. Gbagbo and his 
government, as well as his military leaders. But it is not 
clear at this point precisely how they are going to do this. 
Conceivably he could send him to a foreign country pending the 
handing down of warrants. There is no guarantee that they will 
get indictments from the International Criminal Court. I think 
it is also an issue of timing, how quickly the ICC could hand 
down indictments.
    Obviously, trying Laurent Gbagbo in the country when 
Ouattara just won an election by only 54 to 46, a decisive 
victory but by no means a mandate, reflecting the split in the 
country--could prove difficult.
    Mr. Smith. As you know, and as you indicated, the recent 
massacre of 800 or more Ivoirians in the town of Duekoue last 
month allegedly was perpetrated by rebels supporting President 
Ouattara, who has promised to investigate that horrible 
carnage. Is that the best way to go about this, or should an 
international investigation make this part of their mandate, as 
you I think alluded to with the United Nations?
    Mr. Fitzgerald. That is an excellent question. In fact, 
President Ouattara has spoken out publicly in a noon address, 
one of his first television addresses, to promote the 
reconciliation of people.
    He has agreed to allow an international commission, such as 
the Commission of Inquiry to investigate. I understand the 
leader of that commission has just been named. He is a well-
known Thai jurist, who has a lot of experience. He was the 
Special Rapporteur in North Korea. I would give you his name, 
but I can't pronounce it, to be honest with you. In any case, 
Ouattara is going to set up a national commission of 
investigation, but he is also allowing the U.N. to come in to 
investigate those crimes.
    There is no question that what happened at Duekoue was 
absolutely unacceptable. Human Rights Watch, did an excellent 
report on it. There are certainly credible allegations to the 
effect that Ouattara's forces may have been involved. Of 
course, there are also allegations that Gbagbo's forces as well 
out in the western part of the country have committed 
atrocities as well in other towns.
    Really what we need, and we continue to work with the U.N., 
is to stabilize that area. You are not going to have 
reconciliation if you have one part of the country that people 
are facing off, and frankly, intercommunal violence has been 
going on for years and years out there. We are not entirely 
sure precisely what happened and how it happened, and that is 
why we need the experts to go in on the ground and to 
investigate.
    Thank you.
    Mr. Smith. Let me just ask you with regards to the north/
south Christian/Muslim divide in Cote d'Ivoire, which, as we 
all know, has been growing more violent and entrenched since 
the early 1990s. What are the prospects for healing that 
emotional and physical wound that has festered for so long? And 
have the churches and mosques sought to work together? I mean, 
we saw that in Nigeria when bishops and imams have met 
together, have even traveled here together.
    Mr. Fitzgerald. In the Plateau State and in Jos, 
absolutely.
    Mr. Smith. Yes.
    Mr. Fitzgerald. I don't want to overstate the divide that 
exists. Clearly, there is a physical divide now that should 
come down soon. But the rancor that purportedly exists between 
Christians and Muslims was something that I think Laurent 
Gbagbo sought to exploit as much as possible. In fact, there 
were a number of attacks on mosques within Abidjan, but 
churches weren't touched.
    As far as the reconciliation, again, President Ouattara 
realizes that he needs to reunify this country, and to do that 
he is reaching out to all sides. He has already agreed early on 
in this crisis that he would accept members of former President 
Gbagbo's party to be ministers in his cabinet, as well as 
ministers from former President Bedie's party.
    But there is no question that political reconciliation is 
the top job for him right now. He has an enormous burden of 
issues to work on simultaneously. And if I have an opportunity, 
I can get into those a little bit later. But political 
reconciliation, including--to be as inclusive as possible. And 
to be perfectly honest with you, Mr. Chairman, he needs to 
jumpstart the economy; he needs to start producing good jobs 
for people, and that includes jobs for people up in the north 
as well as in the south.
    To date, he has delivered at least two television addresses 
where he has sought to promote this political reconciliation. 
And we do intend to work with him and the U.N. and other 
regional bodies--AU and ECOWAS--to help him to again break down 
the barriers between north and south in Cote d'Ivoire.
    Than you.
    Mr. Smith. As you know, since the military coup in 1999 
ousted former President Henri Konan Bedie, Cote d'Ivoire has 
been subject to a U.S. restriction on bilateral aid that 
prohibits the use of certain foreign operation funds, with 
exceptions for selected democracy promotion, and, of course, 
humanitarian assistance.
    Is there a review underway, especially as things progress? 
You mentioned $31.7 million being----
    Mr. Fitzgerald. Yes.
    Mr. Smith [continuing]. Most recently allocated. Is there a 
need for Congress to look at some flexibility with regards to 
that restriction?
    Mr. Fitzgerald. Yes. They are under Section 508 
restrictions and have been for almost 10 years, in fact a 
little bit more than 10 years. We are proceeding with a review 
of all the bilateral assistance programs. PEPFAR was never 
stopped, and, in fact, along with Nigeria, Cote d'Ivoire is the 
only other West African nation that receives significant PEPFAR 
funds. This year I think it is on the order of about $125 
million.
    Ironically, it is PEPFAR that has been able to break 
through the north-south divide, and our NGO partners and PVOs 
have been able to go up to the north and basically work on both 
sides of this dividing line.
    Yes, we do need to review all of the restrictions against 
Cote d'Ivoire.
    Mr. Smith. If you could be in contact with our subcommittee 
as well, just as you go through that process.
    Mr. Fitzgerald. Thank you.
    Mr. Smith. Let me ask just a couple of final questions. To 
what extent, and in what instances, have the U.N. peacekeepers 
prevented violence against civilians over the past 4 months? 
Has the administration considered evacuating U.S. citizens from 
Cote d'Ivoire? And, if so, you know, if you would explain that.
    And, finally, the U.S. has provided $81 million in FY09 and 
$140 million in 2010 in assessed contributions toward the 
peacekeeping operations. Where do you think that might go in 
the coming months and year?
    Mr. Fitzgerald. Thank you, Mr. Chairman. Yes, I do think 
that UNOCI played a critical role, in particular in the past 
few weeks in evacuating not only civilians from the line of 
fire but also a number of diplomatic Embassies and consulates 
that were basically located very close to the presidential 
residence where Gbagbo had holed up. His troops were outside 
frequently firing heavy weapons into the Embassies.
    There is no question that UNOCI played a critical role. 
Without UNOCI it would have been a very different story 
completely. As far as the next question, which I have 
forgotten, unfortunately----
    Mr. Smith. It was about the possible evacuation of U.S. 
citizens.
    Mr. Fitzgerald. Right.
    Mr. Smith. And then, how much do you think----
    Mr. Fitzgerald. Peacekeeping.
    Mr. Smith [continuing]. May rise going forward.
    Mr. Fitzgerald. The evacuation of American citizens, we 
explored it. At the beginning of the crisis, there were 
approximately 1,000 to 1,500 U.S. citizens. By far the large 
majority of those were the dual national children of Ivoirian 
parents.
    If there was a good thing about this crisis, it is that the 
violence began in earnest in the past month, I would say, maybe 
a little bit longer than that. So people had an idea early on, 
and our Embassy was very, very proactive in issuing travel 
warnings, and really this is the time to get out. The 
commercial flights are still flying. This is an easy way. Just 
take the time off.
    And I know a great number of religious organizations, 
missionaries who had worked there for years and years, took 
advantage of that to take their annual leave, their holidays 
around Christmastime and haven't returned. I believe they are 
starting to now. We have evacuated and drawn down our staff at 
the American Embassy. In fact, on Saturday during a lull in the 
violence we were able, with the help of the French, to evacuate 
10 additional people to Dakar.
    Our Embassy, under the new program, is the new Embassy and 
was built a bit farther outside of the city than where we were 
before, so in fact we avoided most of the streetfighting that 
was going on. As far as peacekeeping, UNOCI has pledged--or 
when it was stood up and renamed in 2004/2005, it pledged to 
remain not only for the Presidential elections but also 
legislative elections. And we are encouraging President 
Ouattara to move quickly toward legislative elections.
    Again, he won by 54 percent, and folks need to have their 
local representatives represent their individual regions in the 
newly formed national assembly. So ideally within the next 3 or 
4 months, again, with UNOCI's help, they will be able to carry 
out those elections.
    Mr. Smith. Thank you very much. The Chair recognizes Mr. 
Payne for such time as he may consume.
    Mr. Payne. Thank you very much. Let me ask regarding the 
opposition forces, the rebel forces, Forces Nouvelles, led by 
Baba Solvay. I understand there are about 20,000 troops that he 
has under his command, and to your knowledge, does President 
Ouattara have control over these forces in your opinion? Or 
since they were formed before he became a power, will, in your 
opinion, he be able to contain?
    And actually, what is needed would be, in my opinion, the 
demobilization, disarmament, and reintegration that we have 
had, successful programs in the past of the DDR. And I wonder 
whether you could address that question.
    Mr. Fitzgerald. Yes, sir. In all honesty, no, President 
Ouattara does not have control over all of the troops and rebel 
militias that are fighting for him. However, he made an early 
choice when he formed his government to pick Guillaume Soro, 
who in fact comes from the north, who was part of the former 
Forces Nouvelles, who stood up and participated in the 
rebellion earlier in the decade.
    I think Guillaume Soro has reasonable control over most of 
the militias and most of the armed forces now currently known 
as the Republican Forces, and that is, obviously, a deep 
concern.
    Our Ambassador out there, Ambassador Carter, has been in 
discussions just during the past week on the possibility on how 
to stand up a security sector reform program. It is clear, in 
fact, that part of the national reconciliation that the U.N. 
was sponsoring over the past 5 or 6 years--in fact, before 
elections there was supposed to be a disarmament and 
reintegration process unifying these two military forces. That 
has to begin in earnest.
    As the Congressman knows, though, unless there are decent 
jobs available, training programs, that sort of thing, it is 
very difficult to just cut away at the Armed Forces and cut 
them adrift. In fact, the discussions were going to begin in 
earnest with General Bakayoko, who is the Commander of all of 
Ouattara's forces, this week. It has been postponed because of 
what is going on, but I think that will start up soon.
    We have a five-member team from AFRICOM already on the 
ground that will begin the discussions, along with Ambassador 
Carter and his defense attache, with the Republican Forces, on 
how best to begin the security sector reform program.
    Mr. Payne. You mentioned some numbers earlier. In your 
opinion, are there any funds, U.S. funds, that perhaps were cut 
off, in the pipeline, that could be used that may have been 
embargoed? And, secondly, there are several countries which 
have had relatively successful--I call them DDR programs, and 
so forth. In Rwanda there was a pretty good reintegration. 
Liberia has done it.
    If we could look at some of the other plans, I agree with 
you, you have to give--when you take the gun, you have got to 
put a hoe or some seeds or some job training in the hands, or 
they will keep the gun. And so I think this is very key, and I 
would hope that we could--and so my question is whether there 
are any funds that have been, you know, not allocated in the 
past before we start looking toward trying to get new funds.
    Mr. Fitzgerald. Thank you for that question. Unfortunately, 
Cote d'Ivoire has been in crisis for more than 10 years, so, 
unfortunately, I think we have located all of the funds that 
were hanging around. And no, we are not flush with money at 
this point to help begin security sector reform.
    I think we will probably team up with the United Nations, 
as well as the French and the European Union, who have 
participated in other DDR and security sector reform projects 
on the continent. The French announced just a few days ago that 
they were going to be contributing 400 million euros to 
Ouattara's government, and the EU said 180 million euros.
    So that is close to $1 billion. Granted, most of it is 
directed at jumpstarting the economy, but nevertheless I think 
President Ouattara understands deeply how important 
restructuring the military, bringing in all of the 
participants, disarming them, and then reinserting them into 
the country in some meaningful capacity for--and gainful 
employment, is absolutely essential for this to go forward. 
Otherwise, it is whoever has the gun wins.
    And I think he will be reaching out as well. He is a former 
international civil servant, as you know, and spent a great 
deal of time at the IMF and World Bank, and I am sure he will 
reach out to the IFFIs as well for assistance in this regard. 
But the fact that he has already discussed it with Ambassador 
Carter is, again, I think an indication of his seriousness.
    Mr. Payne. And one of the things that d'Ivoire has is a 
tremendous amount of resources, and that gives them a leg up. I 
know in my region we have, you know, companies that import a 
lot of chocolate, and of course the economy in New Jersey was 
starting to--had meetings with our industries to try to see if 
they can get moving again, and even as we had some discussion, 
to try new techniques where the yield of cocao in Cote d'Ivoire 
is almost just 25 percent of what it is in some Asian 
countries.
    Mr. Fitzgerald. Yes.
    Mr. Payne. And I think that one program that the U.S. or 
the world community could do would be to have a large-scale 
training program where you could actually take Ivoirians to the 
Far East where the yield is much greater and see what these 
techniques are, to then bring them back to Cote d'Ivoire. I 
think programs like that might be attractive to----
    Mr. Fitzgerald. Well, you know, Congressman, that is a 
really good point, and I have to say that we reached out early 
on to Archer Daniel Midlands and the other American companies 
that were involved in this. And in fact, we began to work very 
closely with the World Cocoa Foundation. They were interested 
in the situation on the ground. We updated them usually on a 
weekly or biweekly basis--Cargill, Mars.
    I am pleased to say that the World Cocoa Foundation is very 
interested in partnering. It is really a public/private 
partnership whereby they don't have a lot of money, but they 
very much want to work with the Ivoirian people, farmers in 
particular, not only to improve the yield of the crop, but also 
in local sensitization programs and local conflict resolution 
programs. So we are very encouraged by this, that these 
companies are--see as critically important for their production 
to engage in these not typically cocao-related programming.
    Mr. Payne. This is my last quick question. The situation 
with the government going forward, we have heard this question 
of governments of reconciliation. Now, governments of 
reconciliation can mean a number of different things. In 
Zimbabwe, a government of reconciliation meant that Mr. Mugabe 
just kept the power, and he said, ``Well, okay, you are the 
Prime Minister,'' and nothing really changed.
    In Kenya, we saw Kibaki steal the election allegedly, and 
Mr. Odinga became Prime Minister. However, Mr. Kibaki has all 
the power, all the authority, and Mr. Odinga is sort of 
marginalized as is in Zimbabwe.
    Now, when we hear the push for a government of 
reconciliation and inclusion, you know, I just wonder how far 
do you go?
    Mr. Fitzgerald. Yes.
    Mr. Payne. You know, when Bill Clinton went out, there 
weren't too many Democrats hanging around. And when Obama came 
in, there weren't too many Republicans. So, when we are asking 
Africans, well, just take the losers and let us all hold hands 
together, I think there has to be inclusion. But what is your 
opinion of this government of reconciliation?
    Mr. Fitzgerald. I think that is an excellent question. I 
can tell you that the United States Government, the Obama 
administration, has stood firm against any weakening of the 
victory that we saw Alassane Ouattara win. In other words, we 
weren't willing to discuss a government of national unity.
    As far as we were concerned, again, because of this unique 
circumstance of having the U.N. actually certify the vote, 
where they counted up the ballots and the tallies as well, it 
was perfectly--it was crystal clear to us that Ouattara had won 
this race. Now, why reward the losers, was our opinion. And we 
stayed firm to that view.
    Now, as far as a government of reconciliation, I think 
Ouattara himself realizes that, because his margin of victory 
wasn't so great. And we weren't pushing him to include members 
of the opposition parties, but he chose--he offered two to 
three ministries out of 25, which I think is a legitimate 
number.
    He will also do the same with former President Bedie's 
party. He has stronger ties, obviously, to former President 
Bedie than he does to Gbagbo. But, you know, in all the 
governments in Cote d'Ivoire there is a certain cadre of 
technocrats. He himself, Alassane Ouattara, one might say is a 
technocrat.
    So there are certainly people that he can reach out to to 
join his cabinet but not succumb to basically paralysis in the 
cabinet either. And I think he has chosen to do that.
    Mr. Payne. Great. Yes, that is what I want to be clear. I 
don't--one of the problems have been that when people came in 
they just had nothing to do with the other side.
    Mr. Fitzgerald. Right.
    Mr. Payne. I don't think that that is right either, but to 
have some integration. A person has to lead his party, but to 
have, like I said, some others around, but not to dominate.
    Mr. Fitzgerald. Absolutely.
    Mr. Payne. Thank you very much. Thank you, Mr. Fitzgerald.
    Mr. Fitzgerald. Thank you, sir.
    Mr. Smith. Thank you, Mr. Payne.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman. And, again, welcome. 
I want to commend the U.S. team that led to a human rights--the 
U.N. Human Rights Council special session on the situation in 
Cote d'Ivoire, as well as the Council's establishment of a 
Commission of Inquiry to investigate the human rights abuses 
that have been committed.
    I really wanted to begin my questions by asking, what 
effect do you think the Council's actions had on the overall 
situation, and, specifically, the impact that they had on 
Gbagbo.
    Mr. Fitzgerald. Congressman, I am not sure that the Council 
had an effect on Laurent Gbagbo. I don't think he ordered his 
troops to act in different ways. I don't think he ordered his 
troops to follow restraint, which was obviously the message 
that we continued to hit home with President Ouattara and Prime 
Minister Soro.
    In a curious way, I think former President Gbagbo was 
living in a cocoon of his own making, a sort of surreal place 
where what we have heard is he was watching his own local news, 
which was controlled by the state. He didn't have CNN turned 
on, he didn't have BBC, he didn't have any international news. 
He was following his own story, as it were. It was his 
narrative.
    As you know, he refused to take President Obama's telephone 
calls on two occasions. This was a man who had basically 
wrapped himself up and was unwilling to see what was going on 
around him, what was truth and what was this fiction that he 
had developed. Nevertheless, I think some of his military 
leaders realized how serious it was, and they tried to act with 
restraint. But, again, I think on both sides there is a 
question of control of these militia groups.
    Now, Human Rights Watch also mentioned that both sides had 
very likely hired Liberian mercenaries. And you pay the 
mercenaries, but whether you control them is another story 
entirely. So it was absolutely essential, and I think to 
galvanize international opinion, it was essential to have the 
Human Rights Council.
    And, of course, President Ouattara's permanent 
representative in Geneva was an active proponent of the special 
session on Cote d'Ivoire, as well as naming of the Commission 
of Inquiry. I hope that answers your question.
    Mr. Carnahan. It does indeed, and the other area I wanted 
to focus on was really the question of regional stability. 
Liberian President Sirleaf had spoken out about the challenges 
her country is facing, including their upcoming election and 
the effect that recent violence in Cote d'Ivoire and forced 
displacements would have on stability in Liberia and other 
countries in West Africa.
    Can you elaborate on the potential that this Ivoirian 
crisis has to destabilize peace in Liberia, especially given 
the massive refugee flows?
    Mr. Fitzgerald. Yes.
    Mr. Carnahan. And, secondly, to what degree are the U.S. 
and others in the international community looking at this 
crisis in the broader perspective of peace and security in the 
West African region?
    Mr. Fitzgerald. Thank you. Yes, two extremely important 
questions. There is no question that Liberia was deeply 
affected by this. Not only did they have mercenaries going over 
to fight in Cote d'Ivoire, but they also had refugees that they 
had to deal with.
    Fortunately, UNHCR, with the support of the U.S. 
Government, was able to stand up camps pretty quickly. And we 
don't expect those refugees to go back very quickly, but 
probably within 6 months or 1 year, once the security situation 
is stabilized in western Cote d'Ivoire.
    There is no question in my mind that this had the potential 
to drag Liberia back to where it was. And I would also like to 
say that it is important for the subcommittee to see that, in 
fact, this is the first time, almost in history, that the Mano 
River region--and that includes Guinea, the Republic of Guinea, 
Guinea-Conakry, Sierra Leone, Liberia, and Cote d'Ivoire--this 
is the first time that the Mano River Union is going to be in 
peace.
    Guinea held its first democratic elections late last year, 
and has a new President. And now with Cote d'Ivoire, it is 
certainly not solved--the Cote d'Ivoire crisis--but I think we 
are well on our way to helping President Ouattara to stand up a 
government.
    So I am pleased, but there is no question that this sort of 
turmoil, this sort of crisis that we were going through, the 4 
months when President Gbagbo refused to leave and then began 
firing on civilians and drove out a million people from--and 
caused more than a million IDPs and 150,000 refugees in 
Liberia, had great potential.
    As we know from earlier on in Cote d'Ivoire, much of Cote 
d'Ivoire is made up of foreign migrants who have gone there to 
work the cocao fields, to go there. So there was the potential 
for millions of refugees to leave the country, which would have 
been destabilizing to Mali, to Burkina Faso, to Ghana as well. 
In this case, it was Liberia that bore the brunt, and it is not 
a country that is capable of handling that right now.
    Thank you.
    Mr. Carnahan. And my final question is really looking at 
the importance of the international community's response in 
Cote d'Ivoire and in this post-election conflict. As we come up 
to other elections in the region, I think--personally, I think 
it sends an important signal to others in terms of how those 
elections are run and the aftermath. But there are other 
signals we need to be sending prior to those elections that can 
be helpful.
    Mr. Fitzgerald. Absolutely, Congressman. You are absolutely 
right. It was part of the reason why we were so adamant that 
this election be recognized, that the results of this election 
be accepted. In fact, we had near unanimous international 
consensus. AU, EU, U.N., and the United States, Canada, you 
name it, everyone was pretty much on board with this, because 
it will send a signal.
    If we were to allow Gbagbo to remain, even in a government 
of national unity, even sharing power, it would send a signal 
to every other African President, you know, in 15 elections, 16 
elections--I am not entirely sure how many--but in all those 
other--this has been a very clear message to African leaders 
across the continent, and, frankly, around the world to other 
leaders, that the democratic results must be respected. The 
will of the Ivoirian people, the will of the people who are 
voting, must be respected.
    Thank you.
    Mr. Carnahan. Thank you. I yield back.
    Mr. Smith. Thank you. The Chair recognizes the vice 
chairman of the subcommittee, Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Mr. Chairman, for holding this 
timely hearing. And thank you, Mr. Fitzgerald, for coming 
today. I believe this was touched upon earlier, but I would 
like to return to it.
    In a meeting several weeks ago with the Ambassador from 
Cote d'Ivoire, he assured me that this is a society that 
respected tolerance and diversity. But the question remains as 
to whether there is a--if religious divisions are actually a 
subtext here with the majority of the population being Muslim, 
a significant minority--slightly less than the Muslim 
population, being Christian, and the main denomination there 
being Catholic.
    You also saw the Vatican try to send in a special envoy to 
attempt some reconciliation. So what that suggests is, again, a 
society that has a certain amount of heightened awareness of 
its religious diversity. But is this a subtext in the conflict?
    Mr. Fitzgerald. No, I don't think so, sir. I believe that, 
first of all, in Abidjan in particular, it was a political 
struggle between two opponents who have faced off against one 
another for more than 10 years. And out west where we saw some 
of the really heinous attacks and the atrocities, that was more 
of an ethnic division out there than a religious tension 
between these groups.
    Mr. Fortenberry. You are referring to the 1,000 bodies that 
were recently discovered?
    Mr. Fitzgerald. Right. Duekoue and in other areas, they 
have--the HRW--the Human Rights Watch Report was very well 
done, has made numerous credible allegations that both sides in 
fact are guilty of attacking civilians and mass killings. And 
we are very pleased that President Ouattara has agreed to an 
International Commission of Inquiry out of the U.N. Human 
Rights Council will be coming to--will be traveling to the 
country shortly to begin its investigation.
    As far as the Christian-Muslim divide, I would also point 
out that President Gbagbo's second wife is in fact a Muslim 
from the northern part of the country. There is less tension 
between Christians and Muslims than in most states in Africa, 
frankly. It is a highly diverse, highly complicated society 
that has evolved over the years to be very tolerant.
    And I would have to agree with Ambassador Diabate that in 
fact there are--there is a lot of tolerance in Ivoirian 
society. People were set upon in certain parts, and especially 
out west they were attacked because they were Burkinabe, not 
that they were Muslim. It was a xenophobia that Laurent Gbagbo 
used to manipulate the people.
    Mr. Fortenberry. Projecting forward, how do you see the 
civil unrest becoming placated, given that if what you are 
suggesting is the--is not a dominant factor in terms of 
divisions, the political strife over the last 10 years being 
the more dominant factor, perhaps plus some ethnic divisions, 
project out what you see evolving in the near term and long 
term with this change of governance.
    Mr. Fitzgerald. Well, there is no question that the first 
order of business--and a number of things will have to be done 
simultaneously--but President Ouattara has told us that his 
first order of business is political reconciliation. He has got 
to bring back the north, which is predominantly Muslim and 
reunify the north with the south, which is primarily Christian 
and animist.
    I think he is going to do that in certain ways. He is going 
to include southerners, obviously, in his cabinet. He is going 
to hold legislative elections and stand up a serious national 
assembly so local areas will have serious representation. I 
think that he needs to jumpstart the economy, and he needs to 
start building the economy, and create jobs for people.
    Mr. Fortenberry. How long do you anticipate the U.N. troop 
contingent to remain there as well as France?
    Mr. Fitzgerald. That is a good question. The French have 
signaled that they are already beginning to draw down. I think 
the French will probably remain there through probably--they 
may maintain a small contingent there, because they have so 
many expatriates there.
    It is estimated that the French have approximately 15,000 
expatriates living and working in Cote d'Ivoire, many of them 
who have been born there and raised there, and the like. I 
think they will probably draw down a lot of their forces this 
year, but probably leave a contingent.
    As far as the U.N., its mandate continues through 
legislative elections. I believe that President Ouattara wants 
to have these legislative elections as soon as possible. 
Granted, there is certain insecurity still left in Abidjan. Not 
all of Gbagbo's loyalists have given up their weapons. I think 
there is looting going on.
    There is no question that security sector reform has to 
happen very soon, including a robust disarmament program. I 
think the U.N. will probably begin to draw down after 
legislative elections.
    Mr. Fortenberry. All right. Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much. Mr. Marino.
    Mr. Marino. Thank you, Mr. Chairman. Good morning, Mr. 
Fitzgerald. Welcome.
    Mr. Fitzgerald. Good morning, sir.
    Mr. Marino. From what I am hearing, I believe that we are 
on the right track. But outside of a guarantee, how can we be 
certain that the--what was it, $31.7 million----
    Mr. Fitzgerald. Right.
    Mr. Marino [continuing]. And anything else that we are 
going to put into this, is going to be used effectively and as 
we have--we are told it was going to be used.
    Mr. Fitzgerald. Yes.
    Mr. Marino. And I don't mean to be sarcastic, but I don't 
want to see it ending up in some dictator's bank account----
    Mr. Fitzgerald. Sure.
    Mr. Marino [continuing]. Planning for the future.
    Mr. Fitzgerald. Well, the majority of that money is coming 
out of the Bureau of Population Refugees and Migration, and 
typically we contribute that money to--in this case I believe 
the majority is going to UNHCR and to ICRC. Both the UNHCR, the 
High Commissioner for Refugees, and the ICRC have excellent 
reputations for spending the money correctly.
    We did have a PRM representative travel out to eastern 
Liberia--it is very different terrain--to see precisely what 
was needed. And based on her assessment, we will be able to 
track with precisely what UNHCR is doing.
    Now, OFTA also gave money to ICRC, and ICRC is one of the 
few organizations that is able to work, and has been working, 
inside of Cote d'Ivoire. As you know, the International 
Committee for the Red Cross is able to cross lines, usually has 
ties to both sides, and really plays a critical humanitarian 
role in conflict and strife.
    What I have heard from people who have seen what ICRC is 
doing, they are also very active in Abidjan as well, that I 
think that money is going to be well spent. But there is no 
question that there will be robust monitoring and evaluation of 
the money we spend. We are stewards of the taxpayers' money, 
and we understand that completely. It is absolutely important 
that this be used to help the people who need it.
    Mr. Marino. Thank you. And what is our level of comfort 
with this government? And if it does not work out as planned, 
what is our strategy?
    Mr. Fitzgerald. I think we have a high degree of comfort 
with President Ouattara. He is a democrat. He is responsive to 
our concerns and has been throughout this crisis. Former 
President Gbagbo cut us off after the second round of the 
elections, and we had only intermittent contact with his 
purported Foreign Minister but President Ouattara has been very 
open. And I think we will have excellent lines of communication 
with him. If we see that he is doing something wrong, or one of 
his ministries has gone awry, we are going to be able to take 
it up to the highest level.
    I would like to add, too, that President Obama spoke with 
President Ouattara yesterday and congratulated him for holding 
out. He was, as you know, trapped in the Golf Hotel for a 
little bit more than 4 months. But President Obama himself also 
said, ``We are holding you accountable. You told us you were 
going to have an international commission investigate these 
human rights violations. We are going to hold you to that 
promise.''
    And we will. This commission will cut both ways. It will--
there is no impunity, and I was pleased to see President 
Ouattara say that as well. The age of impunity in Cote d'Ivoire 
is over, and we are going to hold him to it.
    Mr. Marino. Thank you, sir.
    I yield my time, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Marino.
    Let me just ask a couple of final questions, Mr. 
Fitzgerald----
    Mr. Fitzgerald. Please.
    Mr. Smith [continuing]. And then yield to Mr. Payne if he 
has any further questions or comments. Can you assure the 
committee that, particularly the money that is flowing through 
the Global Health Initiative, is robustly including faith-based 
organizations, whether they be Christian or Muslim?
    Secondly, it is my understanding that we are providing 
about 38 percent of the funds to the UNHCR, and I certainly 
support that. France, in contrast, is providing about 2 
percent, and I am wondering if there is an unmet need that 
UNHCR has that we might, you know, put some pressure on our 
friends and allies to step up to the plate and provide that.
    And, finally, in Abidjan and elsewhere, law enforcement 
left in large numbers during the conflict. What is happening in 
terms of reconstituting that law enforcement to ensure that 
everyday crime is held to account and people are arrested when 
they commit crimes? And is there an international role to that?
    Mr. Fitzgerald. Yes, thank you. I will start with the last 
one on law enforcement. In fact, the head of the gendarmerie, 
General Kassarate, and the head of the Inspector General for 
police, have sworn their allegiance now to President Ouattara. 
And they went on television and called all of the gendarmes and 
all of the police officers to return to duty immediately, and 
that is immediately as of 9 o'clock a.m. local time in Cote 
d'Ivoire this morning.
    So we will see just how successful they are. UNOCI will be 
playing a big role in maintaining and ensuring law and order. 
The European Union, in the past, has provided police training, 
and I think we can expect them to pony up for that as well.
    On the UNHCR funding, I think we should lean on our allies. 
We have leaned on them enough as it is. They are used to it, I 
think. Again, the 400 million euros is money that we don't have 
to help jumpstart the economy, so I think we will focus on what 
we do best, and the French will focus on what they do best.
    And I would add that our relationship with the French 
throughout this crisis, as it has been in Guinea when we were 
working on elections there, has been excellent with very close 
contact, in constant discussions, and pretty much in lockstep 
on our policy.
    As you know, Congressman, PEPFAR does rely heavily on 
faith-based organizations. That is one of the critical and one 
of the key reasons that it is so successful. So I don't have 
the specifics--I can get those for you--but I am certain----
    Mr. Smith. If you could, we could include it in the record 
as well.
    Mr. Fitzgerald. Absolutely. Actually, now that you mention 
it, Mr. Chairman, I would like to enter into the record the 
Special Representative's report on how he calculated the 
elections. I think there is a lot of confusion in the world 
about how precisely the U.N. was able to ensure that the 
election was as clear-cut as it was.
    And, again, it is that unique certification role that both 
sides agreed to. Laurent Gbagbo and Alassane Ouattara agreed 
that the U.N., because of the difficulties, the differences 
between the two sides, they agreed that they would in fact 
allow the U.N. to certify the election. So I would like to add 
that to the record as well.
    Mr. Smith. Without objection, it will be included in the 
record.
    Mr. Fitzgerald. Thank you, sir.
    Mr. Smith. Thank you.
    Mr. Fitzgerald. And I will get you answers. But, again, 
faith-based--the difficulty has been over the past 4 months 
that PEPFAR money has not been able to get out. As you know, 
Laurent Gbagbo tried to nationalize the banks, and so 
disbursement of funds was extraordinarily difficult. And we 
didn't want to give out funds where we had no control over 
them, so that will restart immediately, frankly.
    Thank you.
    Mr. Smith. Thank you.
    Mr. Payne.
    Mr. Payne. Thank you. Thank you very much. As you know, in 
the chocolate industry, there has been a Harkin-Engel Protocol 
where there has been an interest in trying to improve the 
conditions in the----
    Mr. Fitzgerald. Yes.
    Mr. Payne [continuing]. Mainly child labor.
    Mr. Fitzgerald. Yes.
    Mr. Payne. Perhaps as we move forward, we could encourage--
I know Mars has a very strong--and the reason I know more about 
them, because they are in my Garden State of New Jersey, but--
and I am sure the others may have positive programs, too.
    But if we could encourage them that sometimes you can 
eliminate children working in the fields, if there are 
opportunities for them at schooling or in Liberia, we have the 
same problem with the rubber industry. But if you have some 
facilities where--a child care center or education could be 
there, the mother doesn't have to watch the child.
    So as we move forward, it may be that our economic sector 
could push that issue. Or have you dealt with it at all?
    Mr. Fitzgerald. Well, we have dealt with it. We have 
discussed it early on with the World Cocoa Foundation, as well 
as with Mars. In fact, I met Mr. and Mrs. Mars at an awards 
ceremony for American Corporation of Excellence, and Mars was 
receiving an award. And Mrs. Mars' complaint was that the 
security situation was so bad last year that she couldn't go to 
Cote d'Ivoire, but they very much want to stand up just this 
sort of program to provide clinics and schooling for the 
people, the farmers, the small-scale farmers in particular.
    There is no question that we are very well aware of the 
Harkin-Engel legislation, and it is a key part of what we do on 
the ground in Cote d'Ivoire, and in Ghana as well of course.
    Thank you, sir.
    Mr. Payne. Thank you. Well, I certainly feel that Cote 
d'Ivoire can return. It is a country with a lot of resources, 
very vibrant people, and I think that we can work together. I 
believe that the north and the south can work together. People 
have worked together.
    You know, religion was never a big issue in families in 
Africa. You know, we didn't know which religion the other 
sibling was, and I think that perhaps we here in the U.S. are 
starting to overplay Muslim versus Christian when it is 
basically a non-issue with the average person, 95 percent of 
the people, you don't know who they are, like I said, even 
within families.
    And so I think that the more we defuse this as a--you know, 
we have had--ethnicity was bad enough. Now we don't need to put 
something else on top of it. And so----
    Mr. Fitzgerald. Right.
    Mr. Payne [continuing]. I would just wonder if you see it 
that way, too.
    Mr. Fitzgerald. Yes. Yes, very much. I think in particular 
in this case, it really is much more of--this was a political 
fight.
    Mr. Payne. Right.
    Mr. Fitzgerald. This was a political fight, not even an 
ethnic fight. What is going on in the west, or what has 
happened in the past in the west, is ethnic score settling and 
that sort of thing that has been going on for decades, if not 
longer. But within Abidjan, these are two opponents--Laurent 
Gbagbo and Alassane Ouattara--who have really disliked one 
another for fighting on different sides for a long, long time.
    But again, you can't underestimate Laurent Gbagbo. He is a 
master tactician. He has been able to spin a lot of the 
messaging. He is a very skillful tactician. He is not a 
strategist, but he is a tactician. He is very, very good at 
that. And so as he did earlier in the decade, in 2002/2003, he 
would foment these divisions. He would bring them to the fore 
and say these ethnic divisions are what the problem is. He 
would throw grenades in a mosque. Just recently, his security 
forces did.
    So, again, I agree with you overall. I think that it is not 
a Christian-Muslim thing. I don't even think it is an ethnic 
thing, this political crisis. I think it is a political battle.
    Mr. Payne. Thank you. Thank you very much.
    Mr. Fitzgerald. Thank you, sir.
    Mr. Smith. Thank you. Mr. Fitzgerald, anything else you 
would like to add before we conclude the hearing?
    Mr. Fitzgerald. No, sir.
    Mr. Smith. I thank you for your testimony, for your 
leadership.
    Mr. Fitzgerald. Thank you very much, sir.
    Mr. Smith. Thank you.
    The hearing is adjourned.
    [Whereupon, at 10:27 a.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

  Material submitted for the record by Mr. William Fitzgerald, Deputy 
  Assistant Secretary, Bureau of African Affairs, U.S. Department of 
                                 State

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
